No.
IN THE SUPREME COURT OF THE UNITED STATES n

^PremeComjJs'
FILED

JUL 2 2 2021

BRIAN BRANTLEY,

°SceofthecleRK

Petitioner,
vs.
DEPARTMENT OF REVENUE,
Respondent(s).
On Petition for Writ of Certiorari
to the Second District Court of Appeal
for the State of Florida

PETITION FOR WRIT OF CERTIORARI
BRIAN BRANTLEY
2190 Sunshine Blvd. Apt. A
Naples, FL 34116
Telephone: (239)601-8481
Brantleyb53@gmail.com
PETITIONER IN PRO SE.

7^6

jul

2y

°

1

QUESTION PRESENTED FOR REVIEW
Whether a court’s decision denying a petitioner rule 1.540(b)(4) motion to
vacate order as void for lack of subject matter jurisdiction not based on the
evidence presented before the court by the court violates a petitioner right to due
process and due process of law.

Whether a rule 1.540(b)(4) motion to vacate order as void for lack of
subject matter jurisdiction can be filed at any time and granted at any time.

11

PARTIES TO THE PROCEEDING
All parties do not appear in the caption of the case on the cover page. A list
of all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
Brian Brantley, the Petitioner.
Department of Revenue, the Respondent.
Shavonta Demothenes, the mother.

Ill

TABLE OF CONTENTS
Page
Question Presented For Review

1

Parties to the Proceeding

n

Table of Contents

in

Table of Authorities

v

Petition for Writ of Certiorari

1

Opinions Below

1

State of Jurisdiction

1

Constitutional Provisions in this Case

1

Statement of the Case

2

Reasons for Granting the Writ

3

I.

The Issue Is of Exceptional Importance

3

II.

Court’s decision conflicts with the opinions of other
District Court of Appeals and the Florida Supreme
Court .......................................................................

9

III.
Conclusion

Court’s decision affects large numbers of people

10
10

IV

INDEX OF APPENDICES
March 3, 2021 Opinion of the Second District Court of Appeal

App 1

June 11, 2021 Order Denying Appellant’s Motion for Rehearing, for
Rehearing En Banc, and for Certification to the Supreme Court
of Florida by Second District Court of Appeal .........................

App 2

July 15, 2020 Order Denying Brian Brantley’s Rule 1.540(b)(4)
Motion To Vacate Order As Void For Lack Of Subject Matter
jurisdiction by the Twentieth Judicial Circuit Court in and for
Collier County, Florida ...........................................................

App 3

V

TABLE OF AUTHORITIES
CASES:

Page

Lovett v. Lovett. 98 Fla. 611 (Fla. 1927)

5

Ramagli Reality Co. v. Craven 121 So. 648, 654 (Fla. 1960)

6

Anthy-Irish, 204 So. 3d at 60 (Fla. 5th DCA 2016) .............

6

Taff v. Donellan Jerome, Inc., 407 F. 2d 807 (7th Cir. 1969)

6

Shields v. Flinn. 528 So. 2d 967, 968 (Fla. 3d DCA 1988)

6

David Johnson v. United Airlines. Inc.. 2019 WL 1239723
(N.D. 111., Mar. 18,2019) ....................................

6

Smith v. State. 521 So. 2d 106, 108 (Fla. 1988) ....................

9

Honaker v. State. 199 So. 3d 1008, 1070 (Fla. 5th DCA 2016)

9

CONSTITUTION AND STATUTES
Rule 1.540(b)(4)

6, 9, 10

U.S. Const, amend. XIV

2

28 U.S.C. § 1254(1)

1

Fla. Const. Art. V. § 3

1

Rule 60(b)(4)

3,6, 10

1
PETITION FOR WRIT OF CERTIORARI
Petitioner seeks review of the decision of Florida’s Second District Court
of Appeal affirming the Circuit Court’s order denying his rule 1.540(b)(4) motion
to vacate order as void for lack of subject matter jurisdiction.
OPINIONS BELOW
The opinion of the Second District Court of Appeal is in Appendix at App.
1. The order denying rehearing is in the Appendix at App. 2.
STATEMENT OF JURISDICTION
The opinion of the Second District Court of Appeal was filed on March 3,
2021. Brian Brantley’s petition for rehearing was denied June 11, 2021, which is
less than 90 days before this Petition. There are no grounds for review by the
Supreme Court of Florida. See Fla. Const. Art. V, § 3. This Court has jurisdiction
under 29 U.S.C. § 1254(1).
CONSTITUTIONAL PROVISIONS IN THIS CASE
Petitioner relies upon the Fourteenth Amendment’s protection for due
process of law: “No state shall make or enforce any law which shall abridge the
the privileges or immunities of the citizens of the United States; nor shall any state

2

deprive any person of life, liberty, or property, due process of law ...
U.S. Const, amend. XIV.
STATEMENT OF THE CASE AND FACTS
The appeal arose from the Circuit Court’s Order denying the Petitioner
Brian Brantley’s rule 1.540(b)(4) motion to vacate order as void for lack of subject
matter jurisdiction after the Trial Court submitted the recommended Order to the
Circuit Court in which indicated a Hearing was held on July 9, 2020, before Child
Support Hearing Officer, and the Court having reviewed the file and receiving
testimony finds: Department of Revenue argues issues raised by Brian Brantley
res judicata. Brian Brantley argues subject matter jurisdiction is never waived.
Court finds issues of jurisdiction and Brian Brantley’s pursuit to vacate the order
dated 03/05/1997 are res judicata and, therefore the relief requested is denied., on
July 10, 2020. App. 3. App. 4. The Petitioner filed a timely notice of appeal.
The Petitioner appealed, and the Second District Court of Appeal filed its
opinion per curium affirmed on March 3, 2021. App. 1. Petitioner’s motion for
rehearing was denied June 11, 2021. App. 2.
Petitioner now seeks this Court’s grant of certiorari.

3
REASONS FOR GRANTING THE WRIT
The petition brings the question whether a court’s decision denying
petitioner rule 1.540(b)(4) motion to vacate order as void for lack of subject matter
jurisdiction not based of the evidence presented before the court violates a
petitioner right to due process and due process of law. This is an issue of
exceptional importance, such a court’s decision conflicts with other District Court
of Appeals and the Supreme Court and affects large numbers of people.
1.

The Issue Is Of Great Exceptional Importance

To the Petitioner in this case, the issue is of exceptional importance as
well because Petitioner argues that the Circuit Court’s decision denying his rule
1.540(b)(4) (the equivalent of the rule 60(b)(4)) motion to vacate order as void for
lack of subject matter jurisdiction not based on the evidence presented before the
court violates his right to due process and due process of law.
During the trial, Brian Brantley objected to Department of Revenue’s res
judicata argument. App. 34.
The Department of Revenue argued that all these grounds have been ruled
upon, they are res judicata. App. 32.

4

Your Honor, we would ask that this motion be denied.
Brian Brantley presented to the Court the bases for his objection to the
Department of Revenue’s res judicata argument. App. 34.
First, Brian Brantley argued that subject matter jurisdiction cannot be
waived. App. 34.
Second, Brian Brantley argued that the trial court lack subject matter
jurisdiction when it by its own action instituted a proceeding sue sponte to enter
order of contempt which renders the order void and therefore the order must be
vacated. App. 34.
The jurisdiction of the Court remain at rest until called into action by some
suitor. The Court cannot by its own action institute a proceeding sue sponte.
Motion For Order Of Contempt And
Notice For Mediation
On February 14, 1997, Department of Revenue called into action a Motion
For Order Of Contempt And Notice For Mediation indicating to Brian Brantley
that the Petitioner has applied for an Order adjudging you in contempt of court for
failure to appear for blood testing plus courts costs of $346.00 and that you are
hereby commanded to appear at the Collier County Courthouse, on March 5, 1997,

5

at 9 A.M. for mediation conference. See Motion For Order Of Contempt And
Notice For Mediation. App. 15.
The motion for order of contempt and notice for mediation is proof and
evidence that only the Department of Revenue’s motion for order of contempt for
Brian Brantley failure to appear for blood testing plus court costs of $346.00 was
scheduled at the courthouse on March 5, 1997, for mediation.
Final Support Order
On March 5, 1997, at the mediation by default the Circuit Court Judge
entered the Final Support Order. See Final Support Order. App. 17.
The final support order is evidence and proof that the trial court entered
the final support order instead of the order of contempt at the March 5, 1997,
mediation.
The trial court lack subject matter jurisdiction when it by its own action
instituted a proceeding sue sponte to enter the final support order instead of the
order of contempt which renders the order void and therefore order must be
vacated. See Lovett v. Lovett, 98 Fla. 611 (Fla. 1927) (The Florida Supreme Court
held that the Court cannot by its own action institute a proceeding sue sponte. If a

6
Court should render a judgment in a case where it had jurisdiction of parties, upon
a matter entirely outside the issue made, it would of necessity be arbitrary and
unjust as being outside the jurisdiction of the subject matter of the particular case,
and such judgment would be void).
Judgment
A void order makes the judgment void. Ramagli Reality Co. v. Craver. 121
So. 648, 654 (Fla. 1960) (A void judgment may be stricken at any time).
Accordingly, Brian Brantley moves this Court to vacate the final support
order as void for lack of subject matter jurisdiction.
An order entered without subject matter jurisdiction is void and can be
challenged at any time under Fla. R. Civ. P. 1.540(b)(4); like under 60(b)(4). See
Anthony-Irish. 204 So. 3d at 60 (Fla. 5th DCA 2016); Taft v. Donellan Jerome,
Inc.. 407 F. 2d 807 (7th Cir. 1969).
Rule 1.540(b)(4); just like Rule 60(b)(4), provides relief from void
orders and void judgments. Relief from a void order may be granted at any time.
See Shields v, Flinn, 528 So. 2d 967, 968 (Fla. 3d DCA 1988); David Johnson v.
United Airlines. Inc.. 2019 WL 1239723 (N.D. 111., Mar. 18, 2019.

7
Third, Brian Brantley failure to raise the trial court lack subject matter
jurisdiction when it by its own action instituted a proceeding sue sponte to enter
the final support order instead of the order of contempt argument in two previous
motions that the Court ruled on in two orders has prevented the argument from
being res judicata, and therefore the argument is not res judicata. App. 34.
Brian Brantley presented the only two orders from the court file that the
Court ruled on in two previous motions filed by him as follows:
Order Denying Motion To Quash Service
On September 21, 2018, the Circuit Court issued the Order Denying
Motion To Quash Service ruling the Respondent [Brian Brantley] has waived any
objection to the Court’s personal jurisdiction over him in this matter, Motion is
denied with prejudiced. App. 20.
The Order Denying Motion To Quash Service proves that the Circuit
Court issued only a personal jurisdiction ruling. Not a subject matter jurisdiction
ruling.
Order Denying Motion To Vacate Written Agreement
On December 16, 2019, the Circuit Court issued the Order Denying Motion

8
To Vacate Written Agreement ruling the Respondent’s (Brian Brantley’s) Motion
to vacate written agreement is denied [the Motion To Vacate Written Agreement
contained a due process violation argument]. App. 25.
The Order Denying Motion to Vacate Written Agreement proves that the
Circuit Court issued only a due process ruling. Not a subject matter jurisdiction.
The two Circuit Court orders are evidence and proof that Brian Brantley’s
argument the trial court lack subject matter jurisdiction when it by its own action
instituted a proceeding sue sponte to enter the final support order instead of the
order of contempt was never previously presented before the Circuit Court nor
ruled on by the Circuit Court and therefore the argument is not res judicata.
Department of Revenue then abruptly stated to the Court that, “Brian
Brantley has argued this and raised this issue in past. The Court has ruled upon it.
It has now become res judicata and law of the case. App. 34.
Brian Brantley stated to the Court is the court going to rule on my objection
Your Honor? App. 35.
The Court responded to Brian Brantley just a moment. I’m making some
notes. App. 35.

10
3.

Court’s decision affect large numbers of people

All petitioners have a constitutional right to be heard by the court on his
or her rule 1.540(b)(4) (or rule 60(b)(4)) motion to vacate order as void for lack of
subject matter jurisdiction based on the evidence presented before the court and
have the rule 1.540(b)(4) (or rule 60(b)(b)) motion to vacate order as void for lack
of subject matter jurisdiction based on the evidence presented before the court
granted by the court. To allow such a court’s decision affects large numbers of
people, including the Petitioner in this case. Such a decision should not and must
not be allowed to stand. This Honorable Court should grant petition for review
CONCLUSION
This is a question of great importance, the Court should grant certiorari to
hear.
Respectfully submitted,
By:
BRIAN BRANTLEY
2190 Sunshine Blvd. Apt. A
Naples, FL 34116
Telephone: (239)601-8481
Brantleyb53@gmail.com
PETITIONER IN PRO SE.

